GR-50-98-009
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
  
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES 
GRANT TO THE CITY OF BRECKENRIDGE, MISSOURI 
POLICE DEPARTMENT
Award Number 95CFWX5496
Audit Report Number GR-50-98-009
February 20, 1998
 
 EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of a grant
awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing
Services (COPS), to the City of Breckenridge, Missouri, Police Department (Breckenridge).
Breckenridge received a $46,289 grant to hire or rehire one additional sworn police
officer under the Funding Accelerated for Smaller Towns (FAST) program. The purpose of the
grant is to enhance community policing efforts. Our audit revealed that Breckenridge did
not properly manage the COPS FAST grant. Specifically:

- Breckenridge's accounting system could not be relied upon to provide accurate and
  reliable operating and financial information. As of June 30, 1997, Breckenridge had
  requested reimbursement of about 67 percent of the total FAST grant award. However, since
  Breckenridge did not maintain personnel, payroll, or time and attendance records for
  police officers, costs charged to the grant could not be verified. As a result, we
  question $24,801 in reimbursements.


- Breckenridge operated without a budget during the entire term of the audit period.
  Thus, budgeted funds for police services and the number of officers budgeted could not be
  determined.


- In March 1997, the city council of Breckenridge asked the mayor to resign.
  Furthermore, the council disbanded the police department in April 1997, by terminating the
  police chief and remaining police officers. In addition, it requested COPS intervention to
  investigate improprieties with grant funds. Consequently, we recommend that the remaining
  $21,488 in grant award be deobligated and put to better use.


- There were no records to support the source or the receipt of the matching funds for
  the FAST grant. As a result, we were unable to determine whether matching funds were
  received in accordance with grant requirements.
- Neither the Officer Progress Reports nor the Annual Department Report were submitted
  to COPS, most Financial Status Reports were submitted to the Office of Justice Programs
  (OJP) late, and total program costs for the FAST grant were inaccurately reported. 

 
#####